<html>
<title> - CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN SYRIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN 
                                 SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2011

                               __________

                           Serial No. 112-98

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/





                  U.S. GOVERNMENT PRINTING OFFICE
72-102                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York<greek-l>As 
    of October 11, 2011 deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Frederic C. Hof, Special Coordinator for Regional Affairs, 
  Office of the U.S. Special Envoy for Middle East Peace, U.S. 
  Department of State............................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Frederic C. Hof: Prepared statement..........................     9

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31


  CONFRONTING DAMASCUS: U.S. POLICY TOWARD THE EVOLVING SITUATION IN 
                                 SYRIA

                              ----------                              


                      WEDNESDAY, DECEMBER 14, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. I want to wish everyone good morning. I want to 
welcome all of my colleagues to this hearing of the 
Subcommittee on the Middle East and South Asia. I am Steve 
Chabot, the chairman.
    As has been well-documented, the human rights abuses being 
perpetrated by the regime in Damascus are simply horrifying. 
The Report of the United Nations Independent International 
Commission of Inquiry on the Syrian Arab Republic documents 
some of the most appalling and widespread human rights abuses 
that have been witnessed in recent memory.
    The commission explicitly notes extrajudicial executions, 
arbitrary detention, torture, sexual violence, and, perhaps 
most disturbingly, the abuse and murder of children. Witnesses 
interviewed by the commission are reported to have witnessed 
the torture, rape, and murder of children no older than 15 at 
the hands of the Syrian security forces.
    One military defector, the report noted, stated that he 
decided to defect after witnessing the shooting of a 2-year-old 
girl by an officer who affirmed that he did not want her to 
grow into a demonstrator.
    The English language does not have words strong enough to 
adequately condemn the horrifying abuses that have been 
committed by the Assad regime and its allies against the Syrian 
people.
    Beyond questions of legitimacy, these despicable acts are 
proof that the Assad regime is morally depraved and it is my 
belief that we and all other responsible nations have a moral 
imperative to ensure that Assad and his ilk are removed from 
power as soon as possible.
    According to Navi Pillay, U.N. High Commissioner for Human 
Rights, the civilian death toll in Syria now exceeds 5,000 and 
the number of children killed is more than 300. No responsible 
nation can sit by and allow this detestable display of 
depravity to continue.
    Today's hearing, however, was called to examine U.S. 
policy. Several months ago, this subcommittee had the privilege 
of hearing Assistant Secretaries Feltman and Posner discuss the 
Obama administration's human rights policies toward Iran and 
Syria. Since that hearing, the administration has taken a 
number of steps on Syria for which it deserves credit.
    Although it took far too much time and at least 1,900 dead 
Syrian citizens, the administration has finally come out and 
called for Bashar al-Assad's departure from power on August 18. 
It also implemented sanctions against the Government of Syria 
and various high-ranking Syrian regime authorities, many of 
which have been mirrored by our allies abroad.
    Unfortunately, I fear this is not enough. Syria currently 
stands on the precipice of full-scale civil war. Recent reports 
suggest that the ranks of the Free Syrian Army--the main armed 
opposition--continue to swell, likely fueled by a rise in 
defections and the intensified violence being perpetrated 
against the Syrian people by Assad and his band of thugs.
    As a result, the number of confrontations between the 
regime and the armed opposition is on the rise. The longer 
Assad remains in power, the more likely this conflict is to 
degenerate into a prolonged conflict that risks splitting the 
country along ethnic and sectarian lines.
    To date, the administration has strongly discouraged all 
armed opposition in Syria. In his testimony before the Senate 
Foreign Relations Subcommittee on Near Eastern and South and 
Central Asian Affairs, Assistant Secretary Feltman stated that 
``We do not want to see the situation descend into further 
violence. The best way forward is to continue support for the 
non-violent opposition while working with international 
partners to further isolate and to further pressure the regime 
. . . While we understand the Syrian people need to protect 
themselves, violent resistance is counterproductive. It will 
play into the regime's hands. It will divide the opposition. It 
will undermine international consensus.''
    This policy of encouraging non-violence in the face of the 
brutal tactics of the Assad regime grows more untenable by the 
day. It is not our prerogative to tell the Syrian opposition to 
eschew armed resistance against the Assad regime when it is 
that very regime that continues to torture, rape, and murder 
the very citizens who comprise the opposition's ranks. It must 
be pointed out to those who maintain that only non-violent 
opposition is legitimate that it was the Assad regime and not 
the opposition which initiated the violence.
    The Syrian people, like all people, have the right to 
defend themselves against the brutality of an illegitimate and 
repressive regime. Moreover, I challenge any who would defend 
the Assad regime by declaring that Assad is merely quelling an 
internal insurrection to show the Syrian people by what free 
and fair means Bashar al-Assad, or his father, attained and 
maintain power.
    This regime has declared war on the Syrian people and the 
Syrian people have a right to fight back; we must stand with 
them in this struggle. As helpful as international consensus 
may be, the outrageous and indefensible veto by Russia and 
China of a U.N. Security Council resolution against Syria does 
not inspire hope that the broader international community will 
be galvanized to any kind of consensus in time to stave off 
more death and the outbreak of civil war.
    When this uprising began, many in Washington were fond of 
pointing out that, unlike his father who murdered over 20,000 
of his own citizens to quell an uprising, Bashar al-Assad does 
not have the stomach for such brutality. They were wrong. It is 
time for us to face the fact that there are no depths to which 
Assad and his regime will not resort to remain in power and to 
crush all legitimate opposition.
    Asking Syrian protestors to remain peaceful in the face of 
Assad's brutal crackdown is tantamount to asking them to commit 
suicide and I fear that doing so may eventually pit us against 
a legitimate opposition instead of against an illegitimate 
regime.
    When this uprising began, many in Washington were fond of 
pointing out that, unlike his father who murdered over 20,000 
of his own citizens to quell an uprising, Bashar al-Assad does 
not have the stomach for such brutality. There were wrong. It 
is time for us to face the fact that there are no depths to 
which the Assad regime will not resort to remain in power and 
to crush all legitimate opposition.
    Asking Syrian protestors to remain peaceful in the face of 
Assad's brutal crackdown is tantamount to asking them to commit 
suicide and I fear that doing so many eventually pit us against 
a legitimate opposition instead of against an illegitimate 
regime.
    I now yield to the gentleman from New York, the 
distinguished ranking member from New York, Mr. Ackerman, for 5 
minutes.
    Mr. Ackerman. Thank you, Chairman, very much for calling 
this very, very important hearing and selecting our excellent 
witness today.
    I, too, think it is worth considering how far U.S. policy 
has moved in the right direction since late July when we met 
with Obama administration officials to discuss the situation in 
Syria as well as Iran.
    Back in July the central policy questions regarding Syria 
were, when would the United States finally and explicitly call 
for Bashar al-Assad to step down, when would we finally impose 
the sanctions available to us, and when would American 
leadership work to move the international community to 
recognize and respond to the vast horror of the Assad regime's 
oppression.
    The answer to those questions came in August when the Obama 
administration moved decisively on all three elements. Later 
than some of us wished, but with more effect than many 
expected.
    The international sanctions organized by the administration 
in consultation with allies in Europe and with Turkey, together 
with subsequent sanctions by the Arab League, have made it 
clear that the Assad regime's days are numbered.
    The Assad gang's rule, which has been characterized at home 
by unparalleled brutality and endemic corruption, and abroad by 
support for Iranian hegemony, the subversion of Lebanon's 
independence, state support for terrorism against Israel, and 
illicit efforts at nuclear proliferation, is doomed and 
deservedly so.
    Clearly, the people of Syria have embraced their 
fundamental right to determine not only who will govern Syria, 
but the form of government as well. We wish for them what we 
desire for ourselves; a democratic government circumscribed by 
law, accountable to the public and bound to respect the 
fundamental rights of the people from whom its powers are 
derived.
    In Syria today there are sharp divisions between 
ethnicities and religions, between believers in non-violence 
and proponents of violent resistance to tear down the Assad 
regime. There are splits between internal activists and 
external dissidents, between Army defectors and civil society 
leaders.
    I would say to all those Syrians distraught by the lack of 
unity and common purpose, welcome to the wonderful world of 
democratic self-government. Your freedom will not come easily 
and certainly not without a great struggle to create a common 
front in throwing off the Assad tyranny.
    And it won't get easier. It just won't. Self-government is 
the hardest form of government and the most complex. But if you 
want simple and easy, stick with what you have. Bashar al-Assad 
and his piggish band of crooks, killers and torturers of 
children will gladly go back to the way things were.
    As we in the United States contemplate the end of the Assad 
regime, events in other parts of the region are giving many 
here some pause in their enthusiasm. The Syrians who replace 
the Assad tyranny may not be Jeffersonian democrats.
    As in other Arab countries, the most politically coherent 
and well-organized forces in Syrian society are apt to be those 
who are organized around religious beliefs. These men and women 
are not likely to consider themselves our natural allies. This 
fact does not necessarily imply that they are, or need to be, 
our enemies.
    In the years to come, a great experiment will likely take 
place throughout the Middle East to determine whether Islamic 
and democratic norms can comfortably co-exist. Some may doubt 
it.
    It often seems to me that many of those most insistent that 
the conflict between mosque and state is irreconcilable seem to 
also be among the most enthusiastic when it comes to lowering 
the wall between church and state here in America. Perhaps they 
know something the rest of us do not.
    I believe there is reason for hope as well. Democratic 
norms that are won by the people who have championed these 
principles in their own voices, and who have won their freedom 
with their own courage, may prove difficult to set aside, in 
the Middle East as much as anywhere else.
    Moreover, we see in a number of other Islamic nations 
outside of the Arab world the development of governments that 
while not perfect, are recognizably legitimate, democratic and 
bound by the rule of law.
    Just as we cannot assume success, it would be equally 
unwise to assume that the Arab revolutions cannot ultimately 
flower into democratic forms. These new Arab governments will 
likely take different forms than we would desire for ourselves, 
but may still remain legitimate and acceptable to their owners. 
It is, at any rate, too soon to tell.
    Our role in these momentous events is to lend what aid we 
prudently can and to remain consistent advocates of the truths 
declared to the world on July 4, 1776: That all people are born 
free and equal; that governments derive their just powers from 
the consent of the governed; and that each of us is endowed 
with inalienable rights.
    If we believe these things are as right and true today as 
they were on that glorious July 4th, we must also believe they 
are right and true everywhere, and not least where the bloody 
hand of oppression lies most heavily.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    The chair will now recognize members for 1 minute if they 
would like to make an opening statement in the order that they 
arrived.
    Mr. Rohrabacher from California, the chair of the 
Subcommittee on Oversight and Investigations, is recognized for 
1 minute.
    Mr. Rohrabacher. First of all, I would like to thank the 
chairman, Mr. Chabot, for holding this hearing. I think that we 
have many jobs as Members of Congress and one is to make sure 
that the word gets out to the American people about things that 
are happening overseas that are dealing directly with out 
values as a people.
    As we have just heard from the ranking member, that there 
is an uprising going on in Syria that goes right to the heart 
of what our ideals are as Americans. I am anxious to hear the 
details. This has been one conflict that I have actually been 
looking at from a distance and have not really been able to 
determine what those details are.
    I am looking forward to the witness. Let me just note that 
when we talk about the Assad family, the dictatorship they have 
had, that is a secular dictatorship, something that we oppose. 
The mullah dictatorship in Iran is also something we oppose 
even though that, of course, is a totally religious mullah 
dictatorship. I guess what Americans are all about is that we 
are against dictators and dictatorships and brutality and want 
to hear the details. Thank you very much.
    Mr. Chabot. Thank you.
    The gentlemen from Kentucky, Mr. Chandler, is recognized if 
he would like to make a statement.
    The gentleman from New York, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I hope that these 
hearings will encourage a defined and proactive U.S. policy 
toward the removal of Assad. I yield back. Thank you.
    Mr. Chabot. Thank you.
    The gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
important hearing. I am pleased to see that President Obama and 
leaders around the world have called on Bashar al-Assad to step 
down. The oppressive Assad regime has terrorized the Syrian 
people for far too long. The brutal actions threaten humanity 
and they need to be stopped.
    Our country, along with the European Union, has the right 
to issue strong sanctions against Syria to deny them revenues 
that are used to finance their abuse of the Syrian people. We 
must remain steadfast in our efforts to give the Syrian people 
what they want and deserve.
    That being a government representative and responsive to 
the people. I look forward to hearing the testimony of the 
witnesses today and engaging them in how we can help the 
Syrians who have been oppressed for too long to finally have 
the government they want and deserve. I held back.
    Mr. Chabot. Thank you.
    The gentleman from Nebraska, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. In the interest 
of time I will yield back but I would like to thank the witness 
for appearing today and for your willingness to hold this 
hearing.
    Mr. Chabot. Thank you.
    The gentleman from Connecticut, Mr. Murphy.
    Mr. Murphy. Thank you very much, Mr. Chairman. Looking 
forward to the testimony today. I think we have learned a lot 
of lessons over the past decade about the difference between 
unilateral action and multilateral action. With the cooperation 
and willingness of Turkey and the Arab League to join with us 
in whole or in part in some of these actions to put pressure on 
the Assad regime.
    Looking forward to comments today from a witness as to how 
we can move forward with partners in seeking an outcome that is 
best for the region and best of the people of Syria and the 
United States.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you.
    I will now introduce our distinguished witness here this 
morning, Frederic C. Hof. He is the Special Coordinator for 
Regional Affairs. Returned to government service in 2009 to 
lead the Special Enjoy for Middle East Peace efforts to achieve 
Syrian-Israeli and Lebanese-Israeli peace agreements, and to 
advice the Secretary of State and other senior U.S. officials 
on Levantine political and security issues.
    Since early 2010 he has coordinated the Department of 
State's and broader U.S. Government's response to the crisis in 
Syria. Mr. Hof previously held senior positions at the 
Departments of State and Defense before serving as present and 
CEO of AALC, an international consultancy. He is a Vietnam War 
Veteran and holds a Purple Heart along with other military 
decorations and civilian awards.
    We want to particularly thank you for your service to our 
country, Mr. Hof. Without further ado, you are recognized for 5 
minutes.

   STATEMENT OF MR. FREDERIC C. HOF, SPECIAL COORDINATOR FOR 
 REGIONAL AFFAIRS, OFFICE OF THE U.S. SPECIAL ENVOY FOR MIDDLE 
              EAST PEACE, U.S. DEPARTMENT OF STATE

    Mr. Hof. Thank you, Mr. Chairman, Ranking Member Ackerman, 
distinguished members of the subcommittee. I am deeply honor to 
have this opportunity to discuss Syria with you this morning 
and I greatly appreciate the invitation to do so.
    You have my statement. I will dispense with reading it. I 
have a few comments that I hope sincerely will help us frame 
the discussion we can have this morning.
    Nine months ago the President of Syria elected to respond 
to peaceful protest with violence and brutality. For 9 months 
he has stayed on course, a course featuring death, 
incarceration, torture, and terror. Is it any wonder that 
peaceful protest threatened to morph into violent resistance? 
Is it any wonder that a regime and its death throes trying to 
save itself would rather risk civil war than implement the 
modest steps called for by the Arab League to restore the 
peace.
    In his recent interview with Barbara Walters, the person 
who slings to the title President of the Syrian Arab Republic 
disclaimed any personal responsibility for the regime's war on 
the Syrian people. ``They are not my forces'' he protested. 
``They are military forces belonging to the government.''
    It is difficult to imagine a more craven disclaimer of 
responsibility. Perhaps it is a rehearsal for the time when 
accountability will come. For now, however, it is a clear 
message to all who serve this regime. Your President claims to 
see, hear, and know nothing. Whether you are a private in an 
infantry squad or a minister of government, your President will 
place the blame for crimes committed squarely on you.
    In another sense, however, President Assad performed an 
important, if accidental, service in drawing a distinction 
between himself and the Syrian state. It is a distinction that 
the Syrian opposition led by the Syrian National Council is 
making as it draws up detailed plans for Syria's transition 
from dictatorship to rule of law. It is the distinction between 
a corrupt and competent, brutal and, yes, dying regime and the 
state to which it has attached itself like a barnacle.
    It is the distinction between a family enterprise that has 
exploited the labor of over 20 million Syrians to enrich itself 
and a state structure which at least in theory is suppose to 
provide basic services to its citizens.
    The Syrian National Council is making it clear that the 
regime, the Assad-Makhlouf family clique, must go. Yet, the 
state for all of its warts and weaknesses, must stay to provide 
basic services and to help facilitate the transition.
    By drawing this distinction, Syria's opposition is 
performing two vital services. It is helping to guarantee that 
if the regime leaves peacefully and quickly there will be no 
prospect of state failure. No prospect of chaos. It is reaching 
out to Syria's minorities who fear the prospect of wrenching 
change even as they despise the corruption, incompetence, and 
brutality of the regime.
    Still, there is scant evidence that this regime has any 
intention of saving Syria as it tries to save itself. The 
longer this regime remains in power, the greater the chances 
are that Syria will dissolve into bloody sectarian conflict. 
This would be disastrous for Syria. It would be disastrous for 
its neighbors.
    How to avoid it without the voluntary stepping aside of a 
reckless regime is problematical. No one, least of all the 
United States, is seeking to militarize the situation. The 
closest we have to international consensus at the moment is 
that the regime must implement the steps called for by the Arab 
League immediately and unconditionally. But it will not likely 
do so.
    One of our most urgent tasks is to work with others to try 
to prevent this peaceful uprising from morphing into armed 
insurrection that would discredit the opposition, reinforce the 
regime's narrative, complicate international support, and most 
likely lead to a bloody and protracted conflict.
    Therefore, my bottom line is this; Bashar al-Assad's policy 
of violent repression will run Syria's economy off the rails. 
If he is willing to preside over Pyongyang in the Levant and if 
he keeps what the Gulf Cooperation Council has labeled his 
killing machine intact, he may hang on for a period of time. We 
will certainly keep up the pressure and try to peal away his 
apologists and enablers in the international community but the 
nightmare of the Syrian people may be far from over.
    Their nightmare will, however end. Our job is to try to 
ensure it ends sooner rather than later and with as little 
damage to the institutions of the Syrian state and the unity 
and the well being of the Syrian people as possible.
    Bashar al-Assad and his inner circle can best contribute to 
the welfare of their countrymen by stepping aside now without 
delay. When the regime is gone, the Syrian people can be 
assured that they will have plenty of help in rebuilding and 
reforming their state and recovering the honor and dignity 
squandered by those who have served themselves at Syria's 
expense.
    Thank you, Mr. Chairman. I look forward to comments and 
questions.
    [The prepared statement of Mr. Hof follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Hof. We appreciate 
your testimony here this morning. We will now each have 5 
minutes to ask questions and I recognize myself for 5 minutes 
for that purpose.
    In my opening statement I had raised my concern about the 
administration's continued calls for all opposition to remain 
peaceful. There is a logic to the administration's policy which 
I do understand. By resorting to violence the administration 
fears that the opposition may lose some international consensus 
and also give the regime fuel with which to drum up support.
    I do not, however, agree with the logic. First, it supposes 
that countries like China and Russia, the latter which recently 
delivered over 70 antiship cruise missiles to the Assad regime, 
would ever break with the regime. My sense is that given the 
brutality we have witnessed, if they have not already broken 
with Assad, they are unlikely to be swayed by more dead bodies.
    Second, this puts us in a difficult position insofar as it 
brings into question whether we could continue to support the 
opposition if it were to fight back against the regime's 
brutality.
    In your written testimony you state that we ``Urge against 
the violent resistance not because we are naive but because we 
firmly believe the effort to extract this regime from the 
Syrian state will succeed more quickly and bloodlessly if the 
revolution remains entirely peaceful.''
    My question is why? One recent report suggests mass attacks 
on army defectors and pro-democracy activists. Do we honestly 
expect the opposition to stand there and be murdered? Has the 
administration met with the free Syrian army and, if not, why 
not?
    And does it have any plans to? If, indeed, the wider 
opposition decides that it can no longer remain nonviolent in 
the face of the regimes onslaught, will we abandon support? At 
what point would the Obama administration reconsider its policy 
of eschewing support for armed opposition?
    Mr. Hof. Thank you, Mr. Chairman. Neither you nor the 
members of this committee, nor the members of the Syrian 
opposition, nor the Syrian people, are going to hear any 
sermons from me or anybody in this administration about self-
defense.
    It is clear what the strategy of the Assad regime is. It is 
to attempt to channel peaceful resistance which it cannot 
handle. It has no clue how to handle peaceful resistance. 
Channel it as best it can in the direction of insurrection 
because it believes it knows how to handle insurrection. This 
is the kind of language that regime understands quite well.
    What we are hoping may still happen mainly by virtue of the 
Arab League initiative and there is going to be a key meeting 
this weekend. Somehow the Arab League will be able to persuade 
the Syrian regime to accept monitors, witnesses on the ground. 
Our view is that it is much less likely that this regime will 
do its worst is there are witnesses present.
    Our view is that the best scenario for Syria's future, the 
best scenario for a stable transition that preserves stability 
in the region is one that would be peaceful. But, Mr. Chairman, 
this regime has a vote in how all of that turns out and I am 
not about to tell people trying to defend their houses and 
their families that they shouldn't do it. I am not about to 
tell Syrian soldiers who are ordered to commit crimes that they 
should follow those orders so it is a real dilemma we face here 
and there are no easy answers to this, sir.
    Mr. Chabot. I hope you are right. I fear you may not be. 
Certainly when you have opposition who is being peaceful and 
they are being gunned down and their children are being 
tortured, there is a natural inclination, of course, to fight 
back. I guess you could look at Egypt as one example where 
violence wasn't necessary.
    The regime did come down. Libya, on the other hand, was a 
different situation and had there not been an armed uprising, I 
don't see a clear way that Gaddafi could have been overthrown 
so only time will tell. We certainly appreciate your insight 
and you are certainly an expert in this area. Thank you again 
for your service to our country.
    I will now recognize the gentleman from New York, Mr. 
Ackerman, for 5 minutes as well.
    Mr. Ackerman. I thank the chairman. I just wanted to 
personally recognize the witness myself insomuch as he grew up 
on Long Island and Port Washington, very much a part of my 
constituency. He is also a graduate of Shriver, one of the most 
prestigious public schools that we have. Is there any chance 
that the Assad regime survives?
    Mr. Hof. Congressman, our view is that this regime is the 
equivalent of Dead Man Walking. The real question is how many 
steps remain. I think it is very, very difficult to predict or 
project how much time this regime has. The more time it has, 
the worse for Syria, the worse for the region. That is very 
clear. No, I do not see this regime surviving.
    Mr. Ackerman. I would strongly agree with you. My view has 
always been in the end the street wins but how long it takes to 
get to the end is sometimes measured in a lot of blood. What is 
there that we or others could be doing to speed up the demise 
of the regime that we are not doing right now?
    Mr. Hof. Congressman, one of the tasks that has been 
assigned to me by the Secretary of State is outreach to the 
Syrian-American community. Outreach to Syrian-Americans of 
various faiths, various political beliefs. I think one of the 
things that members of this committee can do, I am sure each 
and every one of you has Syrian-American constituents. Each and 
every one of you is aware of what Syrian-Americans have 
contributed to the United States of America to the extent you 
are willing and able to reach out to these communities, to 
engage them in dialogue and, if necessary, point them in my 
direction.
    Mr. Ackerman. What do we tell them to do?
    Mr. Hof. I think what we tell them to do, particularly in 
the case of what are in Syria minority communities, Christians, 
I think we need to assure them, Number one, change is coming 
and, number two, their government, the United States 
Government, is absolutely committed to seeing Syria's 
minorities playing a central role in the new Syria.
    This is part, a big part, of our ongoing discussion with 
the Syrian opposition. The need to make absolutely sure that 
all communities in Syria are (a) comfortable with the fact that 
change is coming, and (b) knowing that they are going to play a 
central role in this.
    The Syrian opposition holds very strong cards and is really 
the determinant factor of what is going to happen ultimately in 
Syria. I think it was very important that Ambassador Ford did 
return so that among the many things he has to do is build our 
ties with the next generation in Syria with the Syrian leaders.
    Mr. Ackerman. What can you tell us in our very public 
setting here about contacts that we have made with the Syrian 
opposition that would assist them in their struggle and are we 
doing everything that we can specifically with regard to 
determining what the attitudes are and helping shape those 
attitudes under a new regime, specifically toward the Christian 
community which seems to be in grave danger in so many parts of 
the Arab world?
    Mr. Hof. I think, Congressman, that is an extraordinarily 
important point. We are not shy about the fact that we reach 
out to the Syrian opposition. It is a major part of Ambassador 
Robert Ford's mission in Damascus. It is a major part of my 
mission on the outside. It is a major part of the mission of 
the Assistant Secretary Jeff Feltman.
    We have sustained contacts with the opposition. The 
opposition, obviously, is not a creature of the United States 
of America. It is very independent. It is made up of a 
coalition of extraordinarily independent people. They have 
their own thoughts on how to proceed. They have their own 
thoughts on what the transition from dictatorship to rule of 
law should look like.
    One of the points we have made to the opposition, and I 
must say they get it, is that they really do need to do a more 
sustained steady job of outreach to Syria's minorities, to 
Christian, Alawis, Kurds, Druze. The list goes on because it is 
the concerns of these minorities, particularly Christians and 
Alawis, I think, that the regime is hiding behind right now.
    It is probably the key reason why the central parts of 
cities such as Damascus and Aleppo have remained quiet while 
the rest of the country is experiencing protests on a daily 
basis making sure that Syrian Christian and other minorities 
understand that they are part of the solution here. That the 
Assad regime is not only part of the problem, it is the 
problem.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. I didn't quite get the point that you were 
just making. Why is it that those areas are quiet? Because 
what? You were just saying areas in Damascus are quiet and that 
was some sort of success of something. I wasn't quite sure what 
point you were making.
    Mr. Hof. No, Congressman. My point is that to a very large 
degree this regime is both stalking and hiding behind the fears 
of minorities in Syria. Fears about what their role would be in 
the future of Syria. And that this tactic, this, if you will, 
strategy on the part of the regime helps account for the fact 
that central parts of Damascus and Aleppo have been relatively 
quiet.
    Mr. Rohrabacher. Does that mean----
    Mr. Hof. One more point. By the same token what our Embassy 
is seeing is a great deal more in the way of security presence 
in downtown Damascus so the regime is clearly worried about 
what the future holds.
    Mr. Rohrabacher. And you are saying about these 
neighborhoods that they are the Christian and the minority 
neighborhoods? Is that what you are saying? I am just trying to 
get the understanding.
    Mr. Hof. Yes. These are areas where there is a heavy 
minority population.
    Mr. Rohrabacher. So you are suggesting that perhaps the 
minority communities, the Kurds, the Druze, the Alawis, the 
Christians in this insurrection may be attracted to support the 
Assad regime?
    Mr. Hof. What I am saying, Congressman, is that there is 
virtually no one in Syria who has any illusions about the 
corruption, the incompetence, and the violence, the brutality 
of this regime. No one. Not even the people in the inner circle 
of the regime have those illusions. But minorities in Syria do 
have some concerns about what comes next. A major mission for 
the opposition is to address those concerns and do it 
satisfactorily.
    Mr. Rohrabacher. How does the opposition address those 
concerns?
    Mr. Hof. It is coming along, Congressman. It is a work in 
progress.
    Mr. Rohrabacher. You have a regime that is supposedly a 
secular regime. The greatest ally of Syria is the most 
religious of all the regimes, the Mullah regime in Iran. They 
are the most fanatical and you have this alliance so you are 
suggesting that perhaps the insurrection hasn't made it's 
position clear on whether or not people of other faiths will 
have more freedom under a democratic government?
    Mr. Hof. Congressman, the opposition is saying all the 
right things. If you read the statements, you read the 
proclamations, you read the text of speeches that have been 
given, it is all fine. What we have suggested to the opposition 
is that its messaging into Syria needs to be more disciplined, 
more sustained, more powerful.
    Mr. Rohrabacher. I would hope that if there is any 
ambiguity about whether or not the minorities' rights will be 
respected under a new democratic government I would hope that 
would be cleared up.
    Let me ask you about one point that seems to be a central 
point that you are making here today, and that is we in some 
way are opposing an insurrection. I don't know. Maybe the State 
Department burned their history books over there. I don't see 
where tyrants have ever gone down without a fight and, if they 
are, I mean, the United States we had an insurrection. I mean, 
our revolution was an insurrection.
    Mubarak and these others that we have seen where there 
weren't insurrections, these people were tied to the west. Yes, 
they were less than free governments but they weren't the 
brutal dictatorship that we see in the countries that do 
require insurrection to get rid of.
    Frankly, from what you are saying, I think we are sending 
the wrong message. We should be sending the message that yes, 
we support the brave people who are struggling for their 
freedom. If guns come to play, which they will, we hope they 
win.
    Mr. Chabot. The gentleman's time has expired. You may go 
ahead and answer the question if you wish.
    Mr. Hof. Thank you, Congressman. I take your point. I take 
your point. What we have seen from the beginning is this regime 
as its central strategy pushing events in the direction of 
insurgency. That is what we have seen. It appears that they may 
be succeeding.
    Mr. Chabot. Thank you.
    The gentleman from Kentucky, Mr. Chandler, is recognized 
for 5 minutes.
    Mr. Chandler. Thank you, Mr. Chairman.
    Thank you, Mr. Hof, for your testimony. I think this is an 
incredibly important subject. Nobody, I think, in this country 
is a fan of the Assad regime and I think we would all like to 
see it leave.
    If you look at the history of the regime, they have done a 
number of things to maintain power. I know what you are saying 
about the minorities. They have for many years caused the 
minorities to live in fear of rule by the Sunni majority. I 
know that they are continuing to scope that sort of feeling 
amongst the minorities.
    They have also, of course, used Israel as a boogie man for 
a long time to, again, maintain their position at the top of a 
country as a minority, the Alawite minority. With all of that 
in mind, what leads anybody to believe that they would agree to 
some kind of settlement or to leave voluntarily? What is in it 
for this regime to leave voluntarily? They are guilty of a lot 
of crimes obviously so there is going to be a desire to 
prosecute leading members of the Assad regime.
    I have a hard time seeing that this thing will go anywhere 
but the direction of a fight to the finish because I don't see 
that there is anything in it for Assad and for his henchmen, 
who are in charge of the regime, to leave without a fight and 
no benefit for them to leave.
    The second thing that I would like for you to address, if 
you don't mind, give us some idea where Turkey is. I know that 
they are sheltering some of the opposition, but just how far 
along in that effort are they? Are they looking at the 
possibility at some point of armed intervention across their 
border? What is going on with Turkey's efforts to remove the 
Assad regime?
    Mr. Hof. Thank you, Congressman. First of all, on the 
scenario of the fight to the finish, there is plenty of 
historical precedent that substantiates your view on this. I 
think Syrians across the board recognize that the cost of a 
fight to the finish will be really prohibitive. It will be 
prohibitive for the country. It will be prohibitive for the 
region.
    Nevertheless, we cannot discount the strong possibility 
that this is the direction the regime is going to choose to go 
in. The Syrian opposition in coordination with the Arab League 
is trying to pull out all the stops as we speak to try to 
prevent that scenario from taking place. The opposition will be 
going to Cairo with a transition plan that it will discuss in 
some detail with the Arab League.
    It is a plan that involves deep Arab League involvement in 
offering some kind of protected asylum to the regime. I think 
from the point of view of the opposition it owes itself. It 
owes the Syrian people the opportunity to try to run that to 
ground. It may not work but they are going to try and I think 
they should.
    With respect to Turkey I think the big thing that has 
happened over the past several months is a basic change in how 
Turkey analyzes the central nature of the problem here. Turkey 
has gradually but irreversibly come to the conclusion that 
Bashar al-Assad is not part of the solution. He is part of the 
problem. He poses an unbelievable national security threat to 
Turkey.
    As you mentioned, Turkey has provided shelter to the free 
Syrian army. What the Turks tell us, and we have no reason to 
disbelieve them, is that they are not arming these folks and 
sending them across into Syria. That is their position and we 
have no reason to disbelieve it.
    I am sure that Turkey is examining many, many, many 
different options and contingencies right now based on a 
variety of scenarios that could come up. I am not aware of any 
near-term plans to establish safe zones, or whatever, on Syrian 
territory.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from New York, Mr. Turner, is recognize for 5 
minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    I think this regime is a lot closer to Libya and Iraq of 10 
years ago. I don't think either of these there would have been 
a regime change without some outside help, clearly in Iraq. Do 
the insurgents or rebels hold any territory? Is there any 
method or support they are getting in terms of arms or 
equipment? Is there any outside help? Would we be, the United 
States, adverse to supplying some of that, or NATO?
    Mr. Hof. Congressman, as far as we are able to tell, the 
Syrian opposition does not hold territory in Syria. Of course, 
there are opposition people located in various urban 
neighborhoods. There are opposition people who move back and 
forth across various borders.
    I think the key thing right now before we try to determine 
how we are going to relate to all of this, the Syrian 
opposition it self, particularly in the form of the Syrian 
National Council, is still trying to figure out how it relates 
to the free Syrian army and to Syrian army defectors.
    I don't think we want to jump ahead of that. I think we 
need to see how things play out with the Syrian National 
Council and its own relationship building and the Syrian 
National Council in relation to the ongoing Arab League 
initiative.
    Mr. Turner. Is the pre-Syrian army anything more than a 
name? Are there actual units?
    Mr. Hof. You know, it is very difficult, very, very 
difficult for us to get a good handle on this, Congressman. You 
know, it does appear that several thousand Syrian soldiers have 
in essence voted with their feet. They have decided that they 
no longer want to be put in a position of having to support 
criminal activity against their own citizens.
    It does not, however, appear that the free Syrian army is 
the kind of organization on which one would do a sort of formal 
order of battle analysis in terms of battalions, brigades and 
so forth. It does not appear to be organized at this point in a 
conventional military way.
    Mr. Turner. Thank you. I would yield back.
    Mr. Chabot. The gentleman yields back. The gentleman from 
New York, Mr. Higgins, is recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just to follow up, unlike Libya, the Syrian rebels don't 
appear to control any defined or strategic territory. Nor have 
their been any major defections from the Assad government. Who 
are the leading forces in the rebel opposition and who are they 
aligned with?
    Where is this thing going? If you are an insurgent effort 
and you don't have momentum, you are not winning. Would you 
characterize the opposition here as having momentum and able to 
sustain momentum?
    Mr. Hof. Congressman, that is an extraordinarily difficult 
question for me to give a definitive answer to from my 
perspective. If you had asked me a couple of months ago would 
there be the level of defections we are seeing now, I frankly 
would not have known the answer to that question then.
    It is difficult for me to speculate what things are going 
to look like 60 or 90 days from now. The main thrust of the 
Syrian opposition today remains that part of the opposition 
that is absolutely committed to peaceful transition in Syria. 
We are talking about mainly the Syrian National Council and 
other organizations.
    These are organizations that are absolutely determined to 
do their best to avoid civil war. That is the main event right 
now. It is those organizations and it is their relationships 
with the ongoing Arab League initiative. This is the main game 
in town right now.
    Mr. Higgins. So this went from peaceful calls for reform to 
a growing earned insurgency into what could eventually evolve 
into a civil war. The allies of Assad are Russia and China and 
they have blocked U.N. Security Council condemnations of 
Damascus.
    However, the Unite States is aligned with the European 
Union and the sanctions imposed on the Syrian Government seem 
to be having somewhat of an impact in terms of oil revenues, in 
terms of foreign investment that's been halted, in terms of 
deterioration of the tourism economy of Syria. Do you car to 
comment on that?
    Mr. Hof. Yes, Congressman. I think when we are talking 
about sanctions, first of all, truth in advertising. My 
colleagues in the Department of the Treasury are the real 
experts on this. We have identified over time basically seven 
categories of sanctions; Central Bank of Syria, Commercial Bank 
of Syria, other financial institutions, government officials, 
other individuals involved in repression, governmental 
entities, and non-government entities.
    These are the general categories of things to target. In 
those seven categories over time the United States is seven for 
seven. The European Union is six for seven including perhaps 
the most significant of the sanctions which is the cut off of 
imports of Syrian oil. The Arab League if it goes through with 
sanctions will at this stage be three for seven.
    Turkey will be three for seven so I think in the future 
much of our effort will be in working with Turkey and with the 
Arab League to see if additional work can be done in that area. 
But it is having an impact but I hasten to add the impact of 
sanctions is dwarfed by the impact of Bashar al-Assad driving 
that economy straight off the cliff through his policies.
    Mr. Chabot. The gentleman's time has expired. Thank you 
very much.
    The gentleman from Pennsylvania, Mr. Marino, is recognized 
for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    I so appreciate you being here and I thank you immensely 
for your distinguished military service. Correct me if I am 
wrong. I apologize for walking in a little late but did you say 
that you were hoping that the Arab League has influence on 
Assad to the point where if not stepping down he will change 
his attitude and his mind as to where things are going at this 
point?
    Mr. Hof. Congressman, it is difficult for me to measure the 
precise amount of influence the Arab League is going to have on 
Bashar al-Assad calculations. Clearly the steps the Arab League 
has taken to date has sent this regime into a state of shock 
because the message is rather clear. Syria itself is a founding 
member of the Arab League. Syria has always been a central part 
of Arab League deliberations. The message from the Arab League 
is Syria is important. Syrian people are important.
    Mr. Marino. Let me interject here.
    Mr. Hof. This regime has divorced itself from the Arab 
world.
    Mr. Marino. You aren't suggesting that Assad be granted 
immunity for all the murderous criminal acts that he's 
committed, are you?
    Mr. Hof. Congressman, this is not my suggestion. It's not 
the suggestion of the United States Government.
    Mr. Marino. How about the Arab League?
    Mr. Hof. The critical vote here will be cast by those who 
will replace this regime and manage Syria's transition to 
something better. They are the ones who are in charge, not us.
    Mr. Marino. But certainly I would hope that we would more 
than suggest that this man be punished for the crimes that he 
has committed in the name of humanity. I see that the United 
Nations Human Rights Commission wants to refer Syria to the 
International Criminal Court.
    Practicing criminal law for as many years as I have I have 
found that the International Criminal Court is probably not the 
most aggressive court and certainly cannot implement any type 
of punishment that would be satisfactory. Where do you see the 
International Court coming in on this and to what effect would 
they have?
    Mr. Hof. Congressman, I don't know whether the ICC plays in 
this in the long run or not. The only thing I think I know is 
that these are basic calls that need to be made by the Syrian 
opposition. I can't rule out the possibility that the 
opposition itself could come to the conclusion that there is a 
price to pay.
    Yes, a distasteful price. Yes, a disgusting price even. But 
if it gets this click out of the country before it can take the 
country down, is it conceivably a price worth paying? Again, 
it's not a price for us to exact. There are people who are 
going to be responsible for running that country when this 
nightmare is over.
    Mr. Marino. I find it quite ironic that of all countries 
Russia opposes Syria from going before the International 
Criminal Court. With that said, I yield back my time. Thank 
you, sir.
    Mr. Hof. Thank you.
    Mr. Chabot. The gentleman yields back.
    The gentleman from Florida, Mr. Bilirakis is recognized for 
5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thanks for calling 
this very important hearing, very timely hearing.
    Mr. Hof, Syria is in a critical crossroads, as you said, 
and we have an opportunity to do the right thing and take the 
right steps. We may have faltered early on in the so-called 
Arab Spring, in my opinion. I am distressed by what is 
happening to the religious minorities in Egypt, specifically 
the Coptic Christians.
    Therefore, I would like to know the nature of discussions 
the State Department may have had with the Syrian National 
Council and other opposition groups. Have any of those 
discussions centered on developing a constitutional framework 
that protects Christian--of course, all religious minorities, 
and allows the free practice of religion? As that been the 
case? Have they had discussions? If not, why not?
    Mr. Hof. Thank you. Thank you, Congressman. Thank you for 
your question. The issue you have raised has been precisely the 
focus of every single interaction we have had with the Syrian 
opposition. We focused on two points in particular. Again, this 
is mainly with the Syrian National Council but it would apply 
across the board to other organizations.
    Number one, it is absolutely essential that minorities 
whether they be Christians, Alawis, Kurds, whatever, be 
adequately represented on the inside in these organizations. 
There is significant progress being made in that direction. 
Number two----
    Mr. Bilirakis. Could you elaborate a little bit on the 
progress being made?
    Mr. Hof. Well, there are people being incorporated into the 
organization, particularly the Syrian National Council. The 
Syrian National Council is actively recruiting people and it is 
having some success.
    Now, in some cases, and I am sure you will understand why 
this is the case, particularly for Syrian National Council 
members living inside Syria, it is important that their 
identifies be protected so you are not going to see a great 
deal of publicity about this.
    The second point we have been making is that the Syrian 
opposition has to be absolutely relentless, absolutely 
consistent in its messaging do all Syrians, but in particular 
to minorities because Syrian minorities are indeed worried 
about the future even as they acknowledge the rottenness of 
this regime.
    The regime is so bad that Syrian Christians have often been 
at the head of immigration lines to head to places like the 
United States, Canada, France, Australia, places where there 
can be actual opportunity, places where there can be political 
freedom. I think what the opposition is looking for is a 
situation where Syrian Christians and other minorities don't 
feel compelled to leave the country.
    Mr. Bilirakis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Chabot. The gentleman yields back. Thank you.
    We will go through a second round here, although I think it 
will be relatively brief because most of the members have gone 
onto other things. I'll recognize myself for 5 minutes.
    I guess, you know, one of the things that we are struggling 
with here is ultimately whether or not physical force is going 
to be necessary to remove this tyrant from power or not. 
Certainly your indications are, your hope is that ultimately 
won't be necessary. There won't have to be armed conflict to 
get rid of this guy. I ultimately think it probably is going to 
be necessary.
    There are certainly different examples. We have seen 
examples like Idi Amin, maybe Baby Doc, Ben Ali and others that 
saw the writing on the wall and ultimately, you know, fled 
often times into somewhat luxurious exile.
    Then you have other examples holding onto the bitter bloody 
end like Saddam Hussein and Gaddafi to name but a few and it is 
not clear at this point which direction this is going to go. I 
see a nodding so you would agree with that, Mr. Hof.
    Let me go in a different direction. First of all, Lebanon. 
Syria has a long history of intervening in the sovereign 
affairs of the Lebanese Republic and its problems often become 
Lebanon's. Since the uprising in Syria began, violence and 
unrest has spilled over into Lebanon to varying degrees.
    Recently a number of accounts have surfaced in Lebanon 
regarding the violation of Lebanese sovereignty by the Assad 
regime's army, the mistreatment of Syrian refugees, and the 
kidnapping of Syrian dissidents allegedly with the complicity 
of the Lebanese authorities.
    Given the close ties between the two countries, there is 
significant risk that continued unrest and sectarian conflict 
in Syria could spill over into Lebanon. What implications is 
the unrest in Syria having on neighboring Lebanon and in the 
Lebanese Armed Forces, the LAF? Is it capable of confronting 
the challenge posed by prolonged Syrian unrest?
    Mr. Hof. Thank you, Mr. Chairman. That is an 
extraordinarily important and difficult question. The Lebanese, 
of course, are beyond being worried about the potential 
implications for Lebanon of what is happening in Syria. There 
has been refugee movement into northeastern Lebanon. There 
could easily be more in the future.
    The capacity of the Government of Lebanon to handle this is 
limited. The capacity of Lebanese security forces is certainly 
challenged. All I can say at this point is that this is a major 
central agenda item for our Embassy in Beirut and its contacts 
with the appropriate people in the Lebanese Government and the 
Lebanese military and the internal security forces. You are 
right, Lebanese are deeply, deeply worried about this and they 
should be.
    Mr. Chabot. Thank you. Let me conclude with Russia. Mr. 
Marino had raised Russia but let me follow up a little more and 
expound upon that a little bit. Since the unrest in Syria 
began, I think you would agree that Russia has proven 
remarkably un-counterproductive.
    Not only has Moscow outrageously thwarted efforts of the 
United Nations to ramp up pressure against the Assad regime, 
but it has gone so far as to deliver the regime, as I mentioned 
before, antiship cruise missiles.
    In his testimony before the Senate Foreign Relations 
Subcommittee on Near Eastern and South and Central Asian 
Affairs, the Assistant Secretary Feltman testified that this is 
a matter that the U.N. Security Council should be dealing with. 
We would hope that Russia and China in looking at how the Assad 
clique has just refused all attempts of mediation from others 
will not realize it is time for the security council to act.
    Is there anything that you believe could persuade Russia or 
is it just simply a hopeless case? If we are not able to get 
the Russians and the Chinese on board, doesn't this really rule 
out the U.N. as a realistic option? If so, what are the 
administration's steps in response to that?
    Mr. Hof. Mr. Chairman, if indeed it is a hopeless case, the 
one thing I know is that we cannot act as if it is a hopeless 
case. We have to redouble our efforts with Moscow to persuade 
it. Its backing of this regime is not only helping to 
facilitate a humanitarian catastrophe but it is manifestly not 
in the interest of the Russian Federation because change is 
surely coming to Syria.
    I think there is another important element of this. 
Something that the Russian Federation has to take into account 
and that is its relationship with the balance of the Middle 
East, particularly the balance of the Arab world.
    What we have now unfolding is a very important and 
unprecedented Arab League initiative to get Syria to accept a 
series of very, very, very reasonable conditions to turn the 
temperature down and create a possibility of a negotiated 
settlement.
    I think Moscow is watching Syria's performance very 
carefully in all of this. You know, it is one thing for the 
United States to keep up the effort to persuade Moscow. I think 
others may have some leverage as well and that may be the 
soundest most hopeful way forward.
    Mr. Chabot. Thank you. My time has expired.
    The gentleman from New York is recognized for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. I guess it was a 
couple or 3 years ago the Syrian nuclear program in its very 
nascent form, thanks to a gift from North Korea, was basically 
destroyed. Evidence seems to indicate that the Israelis might 
have had something to do with that depriving them of that 
avenue of further terrorist risk and threat to the region and 
to the world.
    That being the case, it does not take away from the fact 
that Syria is the possessor of large amounts of chemical and 
biological stuff and ballistic stuff that nobody has publicly 
addressed right now. Are we talking to the opposition? Perhaps 
that is why reading the nuance of your statements and responses 
you have carefully steered away from exacerbating the 
possibility of a civil war in Syria.
    Are we discussing with any of the possible future leaders 
of Syria what happens with that material and equipment and have 
we made progress or is this not the venue to discuss that? 
Maybe the chairman can arrange a different meeting with you in 
which we could discuss that unless there is something you can 
tell us openly.
    Mr. Hof. Thank you, Congressman. I think a different venue 
would be appropriate but what I can say in terms of discussions 
with the opposition, this may well be a subject that could come 
up sometime in the future. Most of our discussions with the 
opposition to date have focused on challenges that are right in 
front of our faces right now in terms of getting this 
transition started. As to the substance of your question, I 
would respectfully suggest a different venue.
    Mr. Chabot. Will the gentleman yield?
    Mr. Ackerman. I would be happy to.
    Mr. Chabot. The gentleman yields. We would be happy to work 
with the gentleman's staff to set up such a hearing.
    Mr. Ackerman. That would be great.
    Mr. Chabot. Yield back. Thank you.
    Mr. Ackerman. The international community has been 
incredibly active on the Syrian issue. Specifically, the Arab 
League has done things and acted in ways that some of us might 
not have thought possible at the beginning of this much to 
their credit unlike their level of activity in some of the 
other countries that are experiencing shifts in power.
    The Russian's and the Chinese's bad behavior seem to have 
created hopefully an understanding on the part of the Syrian 
street that those countries and their blocking United Nation's 
activities puts them squarely in opposition to the street in 
Syria.
    One might assume that there is a fissure that has developed 
between the future leaders of Syria and the current leaders of 
those two large powers. I would think that this presents an 
opportunity for us to take advantage of that. The question is 
are we so doing?
    Mr. Hof. Thank you, Congressman. I must say that if I were 
given the choice right now I would rather have the full 
cooperation of the Russian Federation in bringing pressure on 
this regime. I would rather see the Russian Federation redo the 
arithmetic on this and come to the conclusion that it's losing 
the Syrian street and that an adjustment is necessary.
    Mr. Ackerman. I would agree to you in humanitarian terms 
because that would bring in much quicker, hopefully, resolution 
to this situation. Given the fact looking at the long-term 
prospect, our real competition is going to be China especially.
    I would think that if I had my druthers when we don't, we 
would take a look at what the real world opportunities are and 
how to take advantage of the fact that this is a very important 
region, an Islamic region with 22 Muslim countries within the 
Arab world and others watching very carefully to show that it 
is we who are more concerned with the people in Syria who are 
supported by the Arab League to prove our bona fides to the 
humanitarian concerns and interests and the well being and 
future of the people in that region.
    Mr. Hof. I think, Congressman, that from the point of view 
of 23 million Syrians there is no question at this point as to 
who stepped up to the plate and who hasn't.
    Mr. Ackerman. Keep up the good work.
    Mr. Hof. Thank you, sir.
    Mr. Chabot. The gentleman's time has expired.
    The final questioner here this morning would be the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Again, 
thank you for holding this hearing. I have often thought about 
writing a book about diplomacy and I think if I ever do, it is 
going to be entitled, ``The Art of Juggling,'' because I know 
that people like yourself have so many factors that you are 
juggling in the air that it is hard to come up--it is not hard 
but almost impossible to come up with a definitive position 
that takes into account all of those things that you have to 
take into account.
    Let me just suggest that you have a lot of other things 
that you are juggling that I am not. So when I say that I am 
disappointed, let me just say that I respect and appreciate the 
job that you and other American diplomats are doing, especially 
in situations like this.
    I am disappointed today in the apprehension that I am 
hearing about armed resistance to tyranny. I think one of 
America's greatest assets is that people who want freedom and 
liberty and justice in this world see America and Americans as 
their ally. That is one of our greatest assets.
    I think it is disturbing to people who are under attack 
whose children may have been killed and soldiers who were about 
to change sides to the side of democracy and cast their fate 
with those who are struggling for a freer society in Syria and 
other places to hear an American representative being so, how 
do you say, not opposed to but so conflicted about whether or 
not violence is justified and violence's way of defending 
oneself and achieving freedom.
    We certainly would not have achieved freedom in the United 
States, and I don't know many countries in the world that would 
have achieved their freedom, with this idea that people can go 
to the streets and face down tanks or whatever and maybe hold 
hands and sing Kumbaya.
    That is not what brings about freedom in this world. It is 
a commitment that people make when the guns start going off 
that they will stand firm for their beliefs. Americans did that 
and others have done that. I would hope that nobody gets the 
idea from what you are saying today that we Americans are in 
some way hesitant to support those who are fighting for freedom 
in their own countries.
    Mr. Hof. Congressman, thank you very much. As I mentioned 
at the beginning, there will be no sermons from me or from 
anybody else in the administration about people not having the 
right to defend themselves. This regime has tried from the 
beginning to produce the result that it is facing today.
    The Syrian National Council, the Arab League, and others 
are trying to pull Syria back from the brink because the 
consequences of this getting out of hand can be terrible for 
the country and for the region. Now, it may be inescapable. You 
have cited some historical precedence.
    These precedence may be the guideposts of the future, but I 
can't blame the Syrian opposition for hoping that this cup 
passes for hoping that there may be a way to stave off civil 
war, to see an end to this regime, and to see a transition to 
something decent. Please, please, I am not a career 
professional diplomat.
    I admire people who are. People in the State Department are 
working this night and day and they are sacrificing a great 
deal. I am a former soldier. I appreciate the right and the 
necessity of self defense. Please, please don't see in my words 
any compromise on that principle.
    Mr. Rohrabacher. One that note. Self defense is one thing. 
Conducting a fight for liberty and justice is another. I think 
we as Americans do support the right of people to fight for 
their freedom and to win their freedom against tyranny. Thank 
you very much.
    Mr. Hof. Thank you, sir.
    Mr. Chabot. The gentleman's time has expired. Thank you 
very much.
    It was brought to my attention Mr. Connolly is one his way 
but we were wrapping up here and if he doesn't make it, we are 
going to have to wrap up without him. All right.
    I want to thank the witness particularly for his testimony 
here today. I thought it was excellent. If there are no 
objections, members will have 5 days to submit statements and 
questions for the record. If there is no further business to 
come before the committee, we are adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
